        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Evaluation Report
The Federal Energy Regulatory
Commission's Unclassified Cyber
Security Program - 2008




DOE/IG-0802                      September 2008
                               Department of Energy
                                    Washington, DC 20585

                                  S e p t e m b e r 1 7 , 2008


MEMORANDUM FOR THE CHAIRMAN, FEDERAL ENERGY REGULATORY
                              COMMMISSION

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Evaluation Report on "The Federal Energy
                         Regulatory Commission's Unclassified Cyber Security Program
                         - 2008"

BACKGROUND

The Federal Energy Regulatory Commission depends on information technology to
support its strategic goals of promoting the development of a strong energy infrastructure,
supporting competitive markets, and preventing market manipulation. As with virtually
all Government and private sector organizations, the Commission is faced with numerous
and increasingly sophisticated attacks on its systems and data. To address this challenge
and the continuing threat to its systems, the Commission expects to spend about $5
million in Fiscal Year (FY) 2008 to protect its IT infrastructure and data from cyber
security related threats.

The Federal Information Security Management Act (FISMA) provides for the
management and oversight of information security risks by requiring that organizations
design and implement controls to protect Federal information and systems. As required
by FISMA, the Office of Inspector General conducts an annual independent evaluation to
determine whether the Commission's unclassified cyber security program adequately
protects its information systems and data. As such, this memorandum and the attached
report present the results of our evaluation for FY 2008.

RESULTS OF EVALUATION

The Commission had taken action to improve cyber security practices and implemented
protective measures designed to defend its networks against malicious attackers and other
external threats. Our evaluation, however, disclosed that additional actions are needed to
reduce the risk of compromise to the Commission's business information systems and
data to an acceptable level. Specifically, we observed that:

       Systems were authorized to operate without sufficient testing of the adequacy of
       mandatory cyber security controls;

       Cyber security incidents were not always handled and reported in accordance with
       Federal requirements, thereby preventing collection of information necessary for
       assisting law enforcement or performing trend analysis;



                                 @    Printed with soy ink on recycled paper
       A number of network accounts had not been terminated as required, a situation
       that could have enabled terminated individuals to access sensitive information to
       which they were not entitled or to damage systems;

       Roles and responsibilities for individuals with significant development or cyber
       security functions had not been properly segregated, providing the opportunity for
       them to take actions such as introducing unauthorized software and modifying
       access rights without authority; and,

       Several devices with known software security vulnerabilities were connected to
       the Commission's network. In certain instances, encryption was not used to
       protect sensitive data on laptop computers and personal data assistants.

These problems existed because the Commission had not fully developed or implemented
all current Federal cyber security requirements. In response to our inquiries, management
stated that due to the recent departure of a large number of information technology staff,
insufficient attention had been given to ensuring that existing policies and procedures
were implemented. FERC management also noted that newer staff was not always made
aware of all cyber security requirements. In addition, weaknesses with the Commission's
"Plan of Action and Milestone" tracking system prevented it from properly managing the
remediation of identified cyber security weaknesses. As a consequence, the
Commission's systems were at risk of disruption, modification or destruction of sensitive
data or programs, andlor the theft or improper disclosure of sensitive regulatory
information.

During the past year, the Commission made progress in improving certain aspects of its
cyber security program. For example, a secondary processing location was secured to
ensure that critical operations could be recovered and continue in the event of an
emergency or disaster. Also, an online service was procured to provide annual cyber
security awareness training, thus enabling automated tracking of employee participation
and incorporating current Federal cyber security requirements. These actions
demonstrate incremental improvements and are the type of actions that, if sustained,
should help improve the Commission's cyber security posture. However, additional
actions are necessary to ensure that the Commission's systems and information are
adequately protected. To that end, we made several recommendations designed to assist
in achieving this goal.

Due to security considerations, information on specific vulnerabilities has been omitted
from this report. However, management officials have been provided with detailed
information regarding identified vulnerabilities, and in certain instances, initiated or
completed corrective action.

MANAGEMENT REACTION

Management agreed with the information contained in the report and concurred with each
of the specific recommendations. Management stated that measures were being
taken to ensure that the issues highlighted in our report are addressed. Due to security
considerations, management's comments have not been included as an attachment to this
report.

Attachment

cc:    Acting Deputy Secretary, Department of Energy
       Executive Director, FERC
EVALUATION REPORT ON THE FEDERAL ENERGY
REGULATORY COMMISSION'S UNCLASSIFIED CYBER
SECURITY PROGRAM - 2008


TABLE OF
CONTENTS


Unclassified Cyber Security Program

Details of Finding ......................................................................................................................1

Recommendations and Comments.............................................................................................7

Appendices

1. Objective, Scope, and Methodology.....................................................................................8

2. Prior Reports .......................................................................................................................10
Unclassified Cyber Security Program

Program               The Federal Energy Regulatory Commission (Commission)
Improvements          had taken several actions to strengthen its cyber security
                      program. Specifically, the Office of the Chief Information
                      Officer made significant progress in continuity of
                      operations planning by securing a secondary processing
                      location to ensure that critical operations could be
                      recovered and continue in the event of an emergency or
                      disaster. In addition, the Commission improved the
                      efficiency of its annual cyber security awareness training
                      by procuring and utilizing an online service available to
                      government agencies. This service enables automated
                      tracking of employee participation and incorporates current
                      Federal cyber security requirements. These activities
                      supplement the Commission's defense-in-depth approach,
                      which utilizes such measures as intrusion detection systems
                      and firewalls to safeguard its networks, systems, and
                      information from malicious individuals attempting to
                      intrude and other external threats.

Risk Management and   Despite these improvements, additional effort is needed
Security Controls     to ensure that all components necessary to sustain a
                      comprehensive cyber security risk management program
                      are operating effectively. Specifically, we found that
                      systems were authorized to operate without sufficient
                      testing of mandatory cyber security controls. Also, cyber
                      security incidents were not always handled and reported in
                      accordance with Federal requirements. In addition, we
                      identified weaknesses in the areas of access controls,
                      segregation of duties, and configuration management.

                                    Certification and Accreditation

                      The Commission had certified and accredited its systems;
                      however, it had omitted testing the adequacy of all
                      mandatory cyber security controls – a critical element in
                      the certification and accreditation (C&A) process.
                      Specifically, each of the seven systems we reviewed were
                      certified and accredited without testing for the presence and
                      adequacy of all minimum security controls. Although
                      required by the National Institute of Standards and
                      Technology (NIST) guidance, risk-level appropriate tests of
                      these systems were not completed. As noted by NIST, it is
                      essential that agency officials have complete and accurate
                      information on the security status of their major and
                      general support systems in order to make timely, credible,
                      risk-based decisions on whether to authorize operation of

________________________________________________________________
Page 1                                            Details of Finding
                      those systems. Failure to have the necessary information
                      could result in a system being authorized to operate with
                      undetected cyber security weaknesses.

                                    Incident Response Management

                      Cyber security incidents were not always handled and
                      reported by the Commission in accordance with Federal
                      requirements. NIST guidance requires that agencies
                      implement an incident handling capability that includes
                      preparation, detection and analysis, containment,
                      eradication, recovery, and prompt reporting of incident
                      information to appropriate authorities. To satisfy these
                      requirements, the Commission utilizes the Department of
                      Energy's Computer Incident Advisory Capability (CIAC) to
                      perform cyber security incident handling functions and to
                      forward reports on incidents to law enforcement authorities,
                      where appropriate, and to the Department of Homeland
                      Security's United States Computer Emergency Readiness
                      Team (US-CERT) for intrusion trend analysis. CIAC is to
                      be notified of all cyber security incidents, both successful
                      and unsuccessful, that fall into six categories, including
                      compromise/intrusion, web site defacement, malicious
                      code, denial of service, critical infrastructure protection,
                      and unauthorized use. However, prior to our review, the
                      Commission had only been reporting incidents involving
                      personally identifiable information to CIAC. Also, the
                      Commission was not consistently providing monthly
                      negative reports to CIAC, an action required when no
                      incidents are detected. Failure by the Commission to
                      properly handle and promptly report all cyber security
                      incidents jeopardizes the ability of CIAC to collect and
                      forward information necessary to assist law enforcement
                      authorities or enable US-CERT to perform intrusion trend
                      analysis.

                                           Access Controls

                      Despite Federal direction and Commission procedures,
                      insufficient reviews were performed of network user
                      accounts. The Commission's procedures required that
                      accounts that had been inactive for the past 90 days should
                      be disabled to help prevent unauthorized system access – a
                      requirement consistent with NIST guidance. While the
                      Commission performed a review of user accounts with
                      privileged access to the unclassified network, such as

________________________________________________________________
Page 2                                            Details of Finding
                      system administrators, a periodic review of all other
                      network accounts had not been conducted. As a result, we
                      noted that a number of inactive accounts existed on the
                      Commission's network. These accounts could have
                      enabled terminated users or individuals no longer having a
                      valid need to access sensitive information or cause harm
                      and/or damage to Commission systems.

                                         Segregation of Duties

                      The roles and responsibilities for the developers, database
                      administrators, and security administrators had not been
                      properly segregated on the Commission's network.
                      Consistent with NIST guidance, functions such as systems
                      programming, system management, and network security
                      should be segregated to prevent an individual from having
                      conflicts of interest in responsibilities and duties, or all of
                      the authority or information access necessary to perform
                      fraudulent activities without collusion. However, contrary
                      to this guidance, we observed that 13 application
                      developers and support staff had privileges that, if
                      exploited, could have enabled them to install malicious,
                      untested, or unapproved software on various systems.


                      Also, the "least privilege" concept had not been enforced to
                      restrict user access for the performance of specified job
                      duties. As noted in NIST guidance, individuals should
                      generally be provided with the least privileged access
                      consistent with their assigned duties to help minimize the
                      risk of unauthorized or malicious use. However, we noted
                      that three users had been granted excessive privileges
                      which enabled them to add, remove, and modify not only
                      their own access rights, but also those of other users,
                      without review or approval. In addition, these users also
                      possessed privileges, incompatible with their job duties, to
                      perform various database functions.

                                       Configuration Management

                      We identified several configuration management problems
                      that, if exploited, had the potential to permit penetration or
                      unauthorized use of the Commission's systems and data.
                      Specifically, servers and communication devices with




________________________________________________________________
Page 3                                            Details of Finding
                                     known uncorrected software vulnerabilities were connected
                                     to the Commission's network. Also, encryption software,
                                     specifically required by the Office of Management and
                                     Budget (OMB) for protecting sensitive information had not
                                     been installed on all laptop computers and personal data
                                     assistants assigned to staff. It should be noted that the
                                     Commission did acquire a software product during FY
                                     2008 that provides full hard disk encryption on laptop
                                     computers, but the installation process had not been
                                     completed. In addition, the Commission had still not fully
                                     implemented two-factor authentication 1 for remote network
                                     access, almost two years after deadlines established by
                                     OMB.

Program                              These problems occurred, at least in part, because the
Implementation                       Commission had not fully developed or issued policies and
                                     procedures that incorporated all current Federal cyber
                                     security requirements. Also, security officials did not
                                     always ensure the requirements were appropriately
                                     implemented. Management, for instance, noted there had
                                     been a recent turnover of a large number of information
                                     technology team members and as a consequence cyber
                                     security operations had not been given adequate attention.
                                     In addition, an inadequate Plan of Action and Milestone
                                     (POA&M) tracking system prevented the Commission
                                     from properly managing the remediation of identified cyber
                                     security weaknesses.

                                                   Cyber Security Policy and Procedures

                                     Cyber security policy and procedures had not always been
                                     developed and issued consistent with current Federal cyber
                                     security requirements. For example, the incident response
                                     policy and procedures lacked important and detailed steps
                                     to be taken in the event of an incident and contained
                                     outdated information regarding incident reporting. Key
                                     information was omitted, such as identifying CIAC as the
                                     entity tasked with tracking incidents and reporting them to
                                     external agencies and law enforcement. In another
                                     example, while Commission procedures addressed the
                                     NIST requirement that the certifying official validate the
                                     results of security control testing prior to accreditation, the



1
 Two-factor authentication requires the use of two independent means of establishing a user's identity, such as
both a physical device and a password, to gain access to a system.

________________________________________________________________
Page 4                                            Details of Finding
                      procedures did not provide details on what controls to test
                      in carrying out the certification process.

                                        Management Attention

                      Where cyber security policy and procedures did exist,
                      security officials did not always ensure the requirements
                      were appropriately implemented. For instance, security
                      officials acknowledged that, due to the lack of either
                      account auditing tools or familiarity with procedures, a
                      review of user account access had not been conducted
                      according to current Commission requirements. As noted
                      in Commission policy, periodic user account access
                      reviews are essential for ensuring that users who no longer
                      have a valid need to access information systems are denied
                      access to these systems. Management also noted that they
                      had recently lost a number of key cyber security staff and
                      did not devote sufficient attention to ensure proper and full
                      implementation of policies and procedures. They also
                      stated that some newer staff had not been made fully aware
                      of Federal and Commission cyber security requirements.

                                     Plan of Action and Milestones

                      In addition, problems with the use and effectiveness of the
                      POA&M reports prevented the Commission from
                      adequately indentifying, tracking and monitoring cyber
                      security weaknesses and the status of corrective actions.
                      As noted in NIST guidance, POA&Ms are important for
                      managing an entity's progress towards eliminating gaps
                      between required security controls and those that are
                      actually in place. However, we observed that:

                         •   All currently unresolved findings or security
                             weaknesses were not tracked in the POA&M. For
                             example, although the Commission had identified
                             that it had a problem with devices with known
                             security vulnerabilities being connected to the
                             network; it had not captured this weakness in the
                             POA&M. Consequently, the vulnerability could not
                             be tracked to resolution and was not reported to
                             OMB as required.

                         •   POA&M entries contained insufficient detail or
                             generic information about findings or security
                             weaknesses. Contrary to OMB and NIST

________________________________________________________________
Page 5                                            Details of Finding
                             requirements, some entries lacked specific detailed
                             steps or milestones for completing the remediation
                             process. Others provided no information on the
                             cost associated with remediation. Such information
                             is necessary for linking costs to annual cyber
                             security budget requests.

                         •   The POA&M provided no pre-2008 history of prior
                             cyber security weaknesses and the results of
                             remediation activities. Prior history on weaknesses
                             should be included in the POA&M to not only
                             provide information necessary for risk assessment
                             and management purposes but also for use by OMB
                             and other cognizant entities in evaluating the
                             effectiveness of the Commission's cyber security
                             program and use of resources.

                      It should be noted that in FY 2005, we reported on similar
                      problems regarding the use and effectiveness of the
                      Commission's POA&M report. At that time, the
                      Commission had taken sufficient action to resolve these
                      problems. However, based on the results of our current
                      evaluation, the controls designed to address the issue
                      appear to no longer be completely effective and additional
                      corrective action is necessary.

Operational           While certain aspects of the Commission's overall cyber
Impacts               security posture had improved, information resources
                      remain more vulnerable than necessary to compromise or
                      attack. Failure to place emphasis on correcting identified
                      weaknesses unnecessarily places the Commission at risk of
                      unauthorized disclosure, destruction, modification, or
                      disruption of its information, operations, and assets. For
                      instance, lost or stolen computer laptops or mobile devices
                      could potentially allow unauthorized access to unencrypted
                      sensitive personal information or data relating to the
                      Commission and its operations. Furthermore, without
                      improvement in its incident response management
                      approach, the Commission will not be able to fully satisfy
                      Federal requirements "…to report all unauthorized system
                      activity or cyber security incidents quickly and accurately "
                      and to certify annually that it has established a process that
                      ensures timely and accurate reporting to the Department,
                      US-CERT, and, where appropriate, law enforcement
                      authorities.



________________________________________________________________
Page 6                                            Details of Finding
RECOMMENDATIONS      Weaknesses identified during the course of our evaluation
                     were discussed with Commission officials. To the
                     Commission's credit, management took prompt action to
                     correct a number of the weaknesses we identified. They
                     also acknowledged the need to update various policies and
                     guidance and established deadlines for completion of these
                     tasks. However, to further enhance the Commissions cyber
                     security posture, we recommend that the Chairman take
                     action to:

                        1. Complete corrective actions to address the
                           remaining vulnerabilities identified in this report;

                        2. Revise and update cyber security policies and
                           procedures, where necessary, to ensure consistency
                           with current Federal cyber security requirements,
                           particularly in the areas of incident response and
                           system C&A;

                        3. Direct security officials to perform sufficient
                           reviews and take necessary actions to ensure that
                           the cyber security program is performing in
                           accordance with requirements and operating as
                           designed; and,

                        4. Develop guidance, as necessary, to ensure the
                           POA&M report includes the information necessary
                           to properly identify, track, and monitor all internally
                           and externally identified cyber security weaknesses
                           and remediation activities.


MANAGEMENT           Management agreed with the information contained
REACTION             within the report and concurred with each of the specific
                     recommendations. The Executive Director provided
                     comments stating that corrective action had been initiated
                     to address the recommendations and strengthen the
                     Commission's overall cyber security posture. In addition,
                     management's comments provided specific timelines for
                     completion of corrective actions.


AUDITOR              Management's comments are responsive to our
COMMENTS             recommendations.




________________________________________________________________
Page 7                              Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Federal Regulatory
                      Commission's (Commission) Unclassified Cyber Security
                      Program adequately protected data and information
                      systems.


SCOPE                 The evaluation was performed between June and
                      September 2008 at the Commission in Washington, D.C.
                      Specifically, we performed an assessment of the
                      Commission's Unclassified Cyber Security Program. The
                      evaluation included a review of general and application
                      controls in areas such as security management, access
                      controls, configuration management, segregation of duties,
                      and contingency planning. Our work did not include a
                      determination of whether vulnerabilities found were
                      actually exploited and used to circumvent existing controls.


METHODOLOGY           To accomplish our objective, we:

                         •   Reviewed Federal statutes and guidance applicable
                             to ensuring the effectiveness of information security
                             controls over information resources supporting
                             Federal operations and assets such as the Federal
                             Information Security Management Act (FISMA),
                             Office of Management and Budget FISMA
                             guidance and Circular A-130 (Appendix III), and
                             National Institute of Standards and Technology
                             standards and guidance;

                         •   Reviewed the Commission's overall cyber security
                             program management, policies, procedures, and
                             practices;

                         •   Assessed controls over network operations to
                             determine the effectiveness related to safeguarding
                             information resources from unauthorized internal
                             and external sources;

                         •   Evaluated the Commission in conjunction with its
                             annual audit of the Financial Statements, utilizing
                             work performed by KPMG LLP (KPMG), the
                             Office of Inspector General's (OIG) contract
                             auditor. OIG and KPMG work included analysis
                             and testing of general and application controls for
                             the network and systems and review of the network
                             configuration; and,
________________________________________________________________
Page 8                              Objective, Scope, and Methodology
Appendix 1 (continued)

                         •   Reviewed reports issued by the OIG and by the
                             Government Accountability Office.

                      The evaluation was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits. Those standards require that we plan and perform the
                      effort to obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our finding and conclusions based on our
                      objective. We believe that the evidence obtained provides a
                      reasonable basis for our finding and conclusions based on our
                      objective. We assessed significant internal controls and the
                      Commission's implementation of the Government Performance
                      and Results Act of 1993 and determined that it had established
                      performance measures for unclassified cyber security. Because
                      our evaluation was limited, it would not have necessarily
                      disclosed all internal control deficiencies that may have existed
                      at the time of our evaluation. We relied on computer processed
                      data sufficient to satisfy certain objectives of the evaluation;
                      we confirmed the validity of such data, where appropriate, by
                      reviewing supporting source documents.

                      The Commission waived an exit conference.




___________________________________________________________________
Page 9                              Objective, Scope, and Methodology
Appendix 2


                                     PRIOR REPORTS

Office of Inspector General Reports

   •   Evaluation of The Federal Energy Regulatory Commission's Cyber Security Program-
       2007 (OAS-L-07-23, September 18, 2007). Overall, we continued to note
       improvements in the Commission's cyber security program. During our evaluation, we
       found that a major financial processing system had undergone a significant software
       upgrade in 2005, but the system had not been recertified and reaccredited for operation.
       Because of the nature of the software upgrade, significant changes occurred both in the
       manner in which data was processed and how it was transmitted – a situation that could
       have potentially introduced security vulnerabilities or increased the risk associated with
       system operation. In response to our query regarding the system upgrade, Commission
       officials provided evidence that they had started a comprehensive recertification
       process in January 2007, and had completed a number of important parts of the effort.
       Since corrective actions were well underway, we did not make any recommendations.
       However, we suggested that the Executive Director ensure that the ongoing risk
       assessment and re-certification of the system fully consider the risk posed by the
       software upgrade and modify system controls, if necessary.

   •   Audit Report: Management Controls over the Federal Energy Regulatory Commission's
       Cyber Security Program - 2006 (OAS-M-06-10, September 2006). The Commission
       continued to strengthen its cyber security program and had completed action on several
       issues identified during prior reviews. However, the evaluation disclosed several
       opportunities to improve the effectiveness and decrease the risk associated with the
       Commission's cyber security program in the areas of access controls and security
       assessments. These vulnerabilities existed because the Commission had not ensured
       that certain aspects of its cyber security program conformed to either Federal or
       Commission requirements or guidelines. Weaknesses such as the ones we discovered
       detract from the overall effectiveness of the Commission's cyber security program and
       potentially expose its information technology resources and data to compromise.

   •   Evaluation Report on The Federal Energy Regulatory Commission's Unclassified
       Cyber Security Program - 2005 (DOE/IG-0704, September 2005). While the
       Commission continued to make strides toward improving its unclassified cyber security
       program, our evaluation revealed several problems that have the potential to put the
       Commission's systems at risk. These problems were found in the areas of access
       controls, configuration management, and corrective action reviews. These problems
       existed because the Commission had not consistently performed compliance
       evaluations required by Federal and organization-specific security directives. As a
       result, the Commission's systems were at risk of disruption of operations, modification
       or destruction of sensitive data or programs, or theft or improper disclosure of
       confidential business information.



___________________________________________________________________
Page 10                                                  Prior Reports
Appendix 2 (continued)


Government Accountability Office Reports

   •   Information Security: Despite Reported Progress, Federal Agencies Need to Address
       Persistent Weaknesses (GAO-07-837, July 2007). Almost all major Federal agencies
       had weaknesses in one or more areas of information security controls. Most agencies
       did not implement controls to sufficiently prevent, limit, or detect access to computer
       resources. In addition, agencies did not always manage the configuration of network
       devices to prevent unauthorized access and ensure system integrity, such as patching
       key servers and workstations in a timely manner; assign duties to different individuals
       or groups so that no one individual had control of all aspects of a process or transaction;
       or maintain or test continuity of operations plans for key information systems. An
       underlying cause for these weaknesses is that agencies had not fully implemented their
       information security programs. As a result, agencies may not have assurance that
       controls are in place and operating as intended to protect their information resources,
       thereby leaving them vulnerable to attack or compromise.

       Nevertheless, Federal agencies continued to report steady progress in implementing
       certain information security requirements. For Fiscal Year (FY) 2006, agencies
       generally reported performing various control activities for an increasing percentage of
       their systems and personnel. However, Inspector Generals at several agencies
       disagreed with the information the agency reported and identified weaknesses in the
       processes used to implement these activities. Further, although Office of Management
       and Budget enhanced its reporting instructions to agencies for preparing FY 2006
       FISMA reports, the metrics specified in the instructions do not measure how effectively
       agencies are performing various activities, and there are no requirements to report on a
       key activity. As a result, reporting may not adequately reflect the status of agency
       implementation of required information security policies and procedures.




___________________________________________________________________
Page 11                                                  Prior Reports
                                                             IG Report No. DOE/IG-0802

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
